TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Weaknesses in Asset Management Controls
                   Leave Information Technology Assets
                            Vulnerable to Loss



                                      September 16, 2013

                              Reference Number: 2013-20-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


WEAKNESSES IN ASSET MANAGEMENT                        KISAM–Asset Manager are inaccurate and
CONTROLS LEAVE INFORMATION                            incomplete because the IRS is not following its
TECHNOLOGY ASSETS VULNERABLE                          procedures to ensure that all assets are
TO LOSS                                               accurately recorded and timely updated in the
                                                      KISAM–Asset Manager.
                                                      TIGTA also found that ineffective inventory
Highlights                                            controls created an environment where
                                                      information technology assets are vulnerable to
Final Report issued on                                loss. TIGTA selected 146 information
September 16, 2013                                    technology assets to physically verify and could
                                                      not locate and verify or find proper supporting
Highlights of Reference Number: 2013-20-089           documentation for 34 information technology
to the Internal Revenue Service Chief                 assets worth more than $948,000. In addition,
Technology Officer.                                   IRS offices improperly completed the annual
                                                      inventory reconciliation process.
IMPACT ON TAXPAYERS
                                                      WHAT TIGTA RECOMMENDED
The IRS Information Technology organization
controls more than 306,000 information                To improve the controls over information
technology assets worth almost $720 million           technology assets, TIGTA recommended that
using the Knowledge, Incident/Problem, Service        the Chief Technology Officer ensure that the
Asset Management (KISAM) system. Our                  inventory records are updated to correct the
review determined that weaknesses in controls         deficiencies identified in our review; the
over asset management create an environment           reconciliation process is effectively completed
in which information technology assets are            and offices provide supporting documentation
vulnerable to loss. The risk of loss, theft, or the   for quality review; and dollar threshold criteria
inadvertent release of sensitive information can      are included in the Asset Management Inventory
decrease the public’s confidence in the IRS’s         Certification Plan for certifying information
ability to monitor and use its resources              technology assets with a high-dollar value that
effectively.                                          affect financial statement reporting. TIGTA also
                                                      made several recommendations that will help
WHY TIGTA DID THE AUDIT                               the IRS Information Technology organization
This audit was included in our Fiscal Year 2012       ensure that the data captured in its inventory
Annual Audit Plan and addresses the major             management system are complete and accurate
management challenge of Modernization. The            and that its assets are adequately safeguarded
overall objectives were to determine whether          against theft or loss.
system user permissions were appropriate to           In their response to the report, IRS management
ensure the safeguarding of the information            agreed with all eight recommendations. IRS
technology asset inventory and to review the          management agreed to deliver KISAM Asset
effectiveness of the system in maintaining an         Manager Tool enhancements for performing
accurate and complete information technology          asset verification and correct data deficiencies
asset inventory.                                      identified by TIGTA; develop a missing asset
                                                      aging report to facilitate researching and
WHAT TIGTA FOUND
                                                      resolving assets in a missing status; and update
TIGTA found that information technology asset         the Fiscal Year 2014 Inventory Certification Plan
data successfully migrated from the legacy            to include the verification of the Serial Number
inventory system to the KISAM–Asset Manager.          field and assets with an acquisition value of
However, the audit log used to capture events         $50,000 or greater.
was not being reviewed to ensure that only
appropriate accesses were made. In addition,
information technology asset data within the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 16, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Weaknesses in Asset Management Controls
                             Leave Information Technology Assets Vulnerable to Loss
                             (Audit # 201220016)

 This report presents the results of our review of the Knowledge, Incident/Problem, Service Asset
 Management system. The overall objectives of this review were to determine whether system
 user permissions were appropriate to ensure the safeguarding of the information technology asset
 inventory and to review the effectiveness of the system in maintaining an accurate and complete
 information technology asset inventory. This audit was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Alan R. Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                 Weaknesses in Asset Management Controls
                           Leave Information Technology Assets Vulnerable to Loss




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Asset Data Successfully Migrated Between Inventory
          Systems; However, Access Controls Need Improvement ............................ Page 6
                    Recommendation 1:........................................................ Page 7

          Asset Data in the Knowledge, Incident/Problem, Service
          Asset Management System Are Inaccurate and Incomplete......................... Page 8
                    Recommendations 2 through 4:......................................... Page 11

          Ineffective Controls Create an Environment in Which
          Information Technology Assets Are Vulnerable to Loss ............................. Page 11
                    Recommendations 5 through 8:......................................... Page 15


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Glossary of Terms ................................................................. Page 22
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
              Weaknesses in Asset Management Controls
        Leave Information Technology Assets Vulnerable to Loss




                    Abbreviations

AM            Asset Manager
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
IT            Information Technology
ITAMS         Information Technology Asset Management System
KISAM         Knowledge, Incident/Problem, Service Asset Management
SACM          Service Asset and Configuration Management
UNS           User and Network Services
                             Weaknesses in Asset Management Controls
                       Leave Information Technology Assets Vulnerable to Loss




                                           Background

The User and Network Services (UNS) organization has responsibility, ownership, management,
and control of information technology equipment in the Internal Revenue Service (IRS). The
UNS organization’s mission includes certifying the information technology inventory on an
annual basis and directing Customer Service Support Centers1 to ensure that the information
technology inventory is accurate. Within the UNS organization, the Service Asset and
Configuration Management (SACM) organization’s Hardware Asset Management office is
responsible for providing oversight, coordination, and guidance on information technology
equipment management enterprisewide using the Knowledge, Incident/Problem, Service Asset
Management (KISAM) system as the management tool. Specifically, the Hardware Asset
Management office responsibilities include:
       Developing asset management policies.
       Performing analysis of the Asset Manager (AM) module within the KISAM system and
        identifying anomalous records.
       Developing and improving processes for asset management and control.
       Monitoring and facilitating execution of the inventory reconciliation and exception plan.
       Working closely with asset owners enterprisewide.
In addition, the organizational placement of the Hardware Asset Management office is intended
to maintain its independence from each UNS organization area and external UNS organization
entities.2
In August and September 2011, the UNS organization replaced the Information Technology
Asset Management System (ITAMS) with the KISAM system. The Information Technology
(IT) organization’s Fiscal Year 2011 fourth Quarter Business Performance Review explained
that the previous system became outdated and heavily customized, and it no longer provided
sufficient automation to manage the day-to-day operations. As a result, the IRS implemented the
KISAM system to improve managing daily operations associated with activities such as asset
management. In addition, the IRS is in the process of implementing the Information Technology
Infrastructure Library® process methodology to align information technology services with the

1
  See Appendix V for a glossary of terms.
2
  External UNS organization entities consist of Chief Counsel, Enterprise Networks, Enterprise Operations,
Information Resources Accessibility Program, Criminal Investigation, and Real Estate and Facilities Management.
Criminal Investigation, Chief Counsel, and Real Estate and Facilities Management are permitted to perform
inventory tasks such as purchasing and disposing of information technology assets assigned to them.
                                                                                                         Page 1
                            Weaknesses in Asset Management Controls
                      Leave Information Technology Assets Vulnerable to Loss



current and future needs of the organization. The IRS reported that the IT organization had
achieved Information Technology Infrastructure Library Maturity Level 3 in October 2012.
The IRS implemented the KISAM system in two releases: the Service Manager module and the
AM module. The UNS organization uses the Service Manager module as the problem
management reporting tool for all IRS-developed applications and shares information with the
Enterprise Service Desk. The UNS organization recognizes the KISAM-AM as the sole
authoritative source and official inventory record for all information technology assets within the
IRS [with the exception of information technology software–related assets (to include software
and software licenses)].
The UNS organization controls information technology assets based on specific classifications.
       Class A – system critical, highly “pilferable,” and require significant security
        considerations or have a high-dollar value. These assets are verified and certified
        annually. Examples include desktop and laptop computers, high-end scanners, network
        printers, servers, and routers.
       Class B – exclusively Personal Digital Assistants or Smartphones. These assets are
        managed electronically and are certified annually.3
       Class C – controlled assets with less dollar value than Class A assets that are recorded for
        important business and operating purposes. Class C assets have an inventory record in
        the KISAM-AM; however, direction on certification and verification is determined by the
        Hardware Asset Management office and the annual Asset Management Inventory
        Certification Plan. Examples include fax machines, low-end scanners, and desktop
        printers.
       Class D – “consumables” that are not tracked in the KISAM-AM because they are
        relatively inexpensive items that are replaced rather than repaired. Examples include
        mice, keyboards, disk drives, and monitors.
Figures 1 and 2 illustrate the total number and dollar value of information technology assets
recorded in the KISAM-AM as of August 2012.4




3
  Due to a recent review, we did not include Class B assets in our scope. Treasury Inspector General for Tax
Administration, Ref. No. 2013-10-010, Inadequate Aircard and BlackBerry® Smartphone Assignment and
Monitoring Processes Result in Millions of Dollars in Unnecessary Access Fees (Jan. 2013).
4
  The dollar value was obtained by using the acquisition cost reported in the KISAM-AM. TIGTA did not perform
any independent tests to ensure the accuracy of the cost information reported in the KISAM-AM.
                                                                                                       Page 2
                            Weaknesses in Asset Management Controls
                      Leave Information Technology Assets Vulnerable to Loss



               Figure 1: Total Number of Information Technology Assets5

                                                                     Class B
                                                                       862



                                                                                Class C
                                                                                75,087

                          Class A
                          230,223




                                                          Total Number of Assets = 306,172

                 Source: TIGTA analyses of a KISAM-AM data extract dated August 2012.

             Figure 2: Total Dollar Value of Information Technology Assets

                                                                          Class B
                                                                          $20,990 


                                                                                  Class C
                                                                                $47,209,217 




                         Class A
                       $672,349,492 




                                                        Total Purchase Price = $719,579,699

                 Source: TIGTA analyses of a KISAM-AM data extract dated August 2012.


5
  There were 529,419 records in the KISAM-AM data extract; however, only 306,172 are information technology
inventory asset records. The remaining 223,247 records are non–information technology asset records.
                                                                                                      Page 3
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



The UNS organization issues the Annual Asset Management Inventory Certification Plan
(hereafter referred to as the Certification Plan) to facilitate the annual reconciliation and
verification of assets to the KISAM-AM. Certification Plan goals include locating and verifying
the existence of all controlled Class A and Class B assets, leveraging opportunities to verify
Class C assets, verifying and confirming that a KISAM-AM inventory record is associated with
every controlled asset in the IRS, and certifying the accuracy of key KISAM-AM data fields.
The Certification Plan also acknowledges that increasing and maintaining the accuracy and
completeness of all information technology assets in the KISAM-AM is critical in assessing and
monitoring asset inventory as well as meeting the current and future needs of the organization.
The annual certification cycle for asset verification activities occurs from October 1 through
June 30 each fiscal year. During this time, all IT organizations work with the SACM
organization to validate and certify a complete and thorough inventory. At the close of the
certification period, the Hardware Asset Management office provides certifying organizations
(e.g., the Field Directors for each UNS organization Customer Service Support Center) with
detailed information about asset records under their control. The information consists of
Anomaly Reports, a Certification Letter, and a Reconciliation Plan Letter. All organizations
must return the Certification and the Reconciliation Plan Letters, both signed by the official
representing the organization. The signed Certification Letter states that an inventory of all
assets requiring certification has been completed according to the Certification Plan. The signed
Reconciliation Plan Letter includes a commitment to address and correct by fiscal year end any
anomalous asset records and error conditions, including unverified Class A and Class B assets,
reported in the Reconciliation Plan Letter. The reconciliation period begins July 1 and concludes
by September 30 each fiscal year.
The Hardware Asset Management office leverages a combination of electronic and physical
verification methods to verify assets. Shifting from a periodic physical wall-to-wall inventory,
the SACM organization continues to promote and implement a perpetual inventory process by
capturing changes to asset inventory in real-time. The SACM organization uses two electronic
tools for verification of assets: a barcode scan and an automated or manual update through a
network scanning tool such as Tivoli. The SACM organization also uses three physical
verification methods: customer self-certification, a physical touch of the asset (i.e., asset move,
add, change, maintenance, or physical inventory), and a documented customer interaction, such
as a service ticket. To verify an asset, certain KISAM-AM date fields need to be populated with
a date of October 1 or later in the appropriate fiscal year. Once a date field has been updated, the
asset is considered verified.
This review was performed at the UNS organization offices at the Brookhaven Campus (which
includes the Depot) in Brookhaven, New York, and the New Carrollton Federal Building in
Lanham, Maryland, during the period October 2012 through June 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to

                                                                                             Page 4
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 5
                            Weaknesses in Asset Management Controls
                      Leave Information Technology Assets Vulnerable to Loss




                                    Results of Review

Asset Data Successfully Migrated Between Inventory Systems;
However, Access Controls Need Improvement
From July 14 through August 25, 2011, the KISAM Project Management office worked on
migrating and validating data from the ITAMS to the KISAM-AM. To ensure a successful
transition, the SACM organization issued guidance communicating a suspension of certain asset
management activities, e.g., processing asset disposals during the transition period. The SACM
organization provided us with the criteria used to identify each subset of asset data in the ITAMS
prior to the migration and the corresponding record counts for the same subset of data in the
KISAM-AM. The SACM organization also provided explanations when differences between the
reported datasets occurred. For example, the August 2011 ITAMS data extract showed that there
were 230,727 assets with an assignment status of “in use” at the time of migration. According to
the SACM organization, the KISAM-AM data reported 221,2136 assets with an assignment
status of “in use;” management explained that the almost 10,000 asset difference was due to
4,855 BlackBerrys that did not migrate until after the KISAM-AM was implemented and
4,660 assets assigned to the Volunteer Income Tax Assistance program that changed to an “in
stock” assignment status.
Using the August 2011 ITAMS and the October 2011 KISAM-AM data, we followed the
migration steps and compared the two data sets to ensure that all inventory records migrated.
Our initial analyses showed that the total number of records migrated did not match the figures
provided by SACM organization management, differing by only 38 records. However, upon
reviewing our identified discrepancies, SACM organization management provided support to
show these 38 assets were in the KISAM-AM under a different barcode number. Each of these
records had a barcode replaced, resulting either from a worn barcode or replacement asset.
We also conducted tests to ensure that sufficient system controls were in place to protect access
to the KISAM system data. Our tests determined that the KISAM application, database, and
operating system complied with password management requirements outlined in Internal
Revenue Manual (IRM) 10.8.1, Password (Authentication) Management. However, our review
of the switch user log (audit log) identified three individuals who accessed the KISAM system
database using a system account and without a need to know. These three individuals are not
database administrators and should not have access to the database system account or the
password for the account. This suggests a security weakness exists within the KISAM system

6
 One asset migrated to the KISAM-AM “in use” assignment status from an ITAMS “in stock” assignment status
(230,727 – 4,855 – 4,660 + 1 = 221,213).
                                                                                                     Page 6
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



infrastructure, and at this time we cannot be assured that the data within the KISAM system are
protected from accidental or malicious altering.
IRM 10.8.3, Audit Logging Security Standards, establishes agencywide policy for the collection
and processing of computer-generated event logs, also called audit logs. Audit capabilities apply
to all aspects of a system, including operating systems, database systems, and applications. The
IRM further prescribes that the audit trails be used by security specialists within the IRS to help
accomplish several security-related objectives, such as individual accountability.
During our meeting to discuss the results of this audit, IRS management indicated that due to
resource availability they made a risk-based decision to allow database administrators to perform
tasks using the database system account by invoking the switch user command. IRS
management advised us that the switch user audit logs were reviewed by security analysts within
the Cybersecurity organization. When we followed up to request documentation to support these
claims, IRS management provided a document explaining that the switch user command had
been in place for many years and preceded the risk-based decision document requirement. We
also discussed the audit log review process with representatives from the Enterprise Security
Audit Trails group (within IRS’s Cybersecurity organization), who explained that a process is in
place to review these logs; however, it has yet to be implemented for the KISAM system
application and its infrastructure.
Although the switch user login events are recorded in an audit log, no one is currently reviewing
the log to ensure that only appropriate accesses are made. This is because the Enterprise
Security Audit Trails group is currently working on developing reports to facilitate reviewing the
audit log events. Until this occurs, we believe that the IRS needs to develop an interim,
mitigating control to review the audit logs.

Recommendation
The Chief Technology Officer should:
Recommendation 1: Ensure that the switch user log for the KISAM system is reviewed
while the Enterprise Security Audit Trails group works on developing and implementing the full
functionality of its automated tools.
       Management’s Response: IRS management agreed with the recommendation and
       will ensure that the switch user log for the KISAM system is reviewed while the
       Enterprise Security Audit Trails group works on developing and implementing the full
       functionality of its automated tools.




                                                                                            Page 7
                              Weaknesses in Asset Management Controls
                        Leave Information Technology Assets Vulnerable to Loss



Asset Data in the Knowledge, Incident/Problem, Service Asset
Management System Are Inaccurate and Incomplete
Although the SACM organization established procedures to ensure the accuracy of its
information technology asset records within the KISAM-AM, procedures are not being followed.
As a result, the KISAM-AM contains incomplete and inaccurate information. Specifically, we
identified inaccurate information in the KISAM-AM relating to the information technology
assets we physically verified. We also found that some items selected for verification from the
“floor” were not recorded in the KISAM-AM and some inventory updates were not timely made.
These conditions occurred because of a reduction in staff resulting from the prior
End-User Equipment and Services reorganization.7 An inaccurate and incomplete inventory
system decreases data integrity and exposes the IRS to the loss or theft of its assets.

Some assets could not be located and some assets that could be physically
verified had inaccurate data recorded in the KISAM-AM
Of the 242 assets in our judgmental sample,8 we physically located and verified 186 assets. We
could not locate 30 assets, and 26 assets were in “missing” or “retired” status. There were
61 assets with inaccurate data in fields that should be reviewed for accuracy during the annual
inventory, as shown below:
        31 assets with inaccurate entries in the Assignment field (e.g., four items were classified
         in the KISAM-AM in a “missing” status, yet we located the assets during our site visits).
        16 assets with inaccurate entries in more than one required field.
        8 assets with incorrect entries in the User Name field.
        6 assets with inaccurate entries in the Building Code field.
Figure 3 lists the minimum required data fields that must be kept current and accurate for each
asset record within the KISAM-AM per IRM 2.14.1, Asset Management, Information
Technology Asset Management. The figure also provides a definition for each field and
identifies whether the SACM organization requires the field to be verified during the annual
inventory.




7
  On April 22, 2012, the End-User Equipment and Services organization merged with the Enterprise Networks
organization to form the User and Network Services organization.
8
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 8
                              Weaknesses in Asset Management Controls
                        Leave Information Technology Assets Vulnerable to Loss



                    Figure 3: Minimum Required KISAM-AM Data Fields
                 to Be Kept Current and Accurate and the Field Definitions

                               Verified
        KISAM-AM
                               During                                Definition
        Field Name
                              Inventory
     Assignment                  Yes          Provides the status of an asset at any given time.
     Barcode                     Yes          A permanent sticker with a unique series of lines printed on it,
                                              which is attached to an information technology asset for quick
                                              identification by a scanner.
     Serial Number                No          A unique, identifying number or group of numbers and letters
                                              assigned to an individual asset.
     Building Code               Yes          Identifies the building and address of the asset location.
     Cost Center                  No          Identifies the organization (e.g., Enterprise Operations) primarily
                                              responsible for the asset. The data are auto-populated from
                                              another source.
     System Name                  No          Used to improve tracking and management of “in stock”
                                              equipment. Also used to identify special equipment used within
                                              the IRS (e.g., Common Premise Capability equipment used to
                                              support Voice Over Internet Protocol).
     Computer Name                No          Populated for computers only. Provides information about the
                                              computer and is used to help with electronic touches via Tivoli.
     Contact Name9                No          Records the primary user of IRS-owned assets. Assets that are
                                              not assigned to a primary user are identified as “shared” assets.
    Source: TIGTA analysis of IRM 2.14.1 and Fiscal Year 2012 Asset Management Inventory Certification Plan.

We also identified an additional 22 assets in our sample with inaccurate data recorded in the
KISAM-AM Serial Number field. A further analysis of the KISAM-AM data identified
1,123 asset records with the same entries in the Serial Number field (e.g., 0000000 or 1234) and
22 asset records where the Serial Number field contained an invalid character. According to the
IRM, the Serial Number field consists of alphanumeric characters and can include dashes, which
are the only special character allowed. Further, the Serial Number field is protected and cannot
be changed after initial entry unless a service desk ticket is submitted.
Although the SACM organization does not currently require independent verification of the
Serial Number field, we believe this should be added to the Certification Plan requirements,
especially because there are several other information technology asset management processes

9
  The Contact Name data field is different from the User Name data field in the KISAM-AM. While the IRM
requires the Contact Name field to be kept current and accurate, the Certification Plan requires verification of the
User Name field.
                                                                                                                  Page 9
                              Weaknesses in Asset Management Controls
                        Leave Information Technology Assets Vulnerable to Loss



(e.g., asset disposal and purchase of maintenance) that require both the barcode and serial
number to identify each asset. Further, the SACM organization acknowledges in the IRM that
efforts to locate assets by serial number sometimes fail due to inconsistencies in the data.
We also analyzed two other required data fields in the KISAM-AM and identified the following:
        20,546 asset records with blank Cost Center fields (the Cost Center field should be
         auto-populated).
        38,774 assets in an “in stock” status had an invalid entry in the System Name field.
According to the IRM, standard recording of assets in an “in stock” assignment status assists
with the proper identification, monitoring, and control of the assets. Using the System Name
field in the KISAM-AM allows offices to more efficiently manage their equipment assigned with
an “in stock” status. Acceptable entries in the System Name field include “general refreshment,”
“depot local,” “depot project,” and “national depot.” Analysis of the KISAM-AM data showed
that 34,488 of the assets with an “in stock” status used the default entry of “admin” for the
System Name field. Additionally, approximately 80 percent (27,515 of 34,488) of these asset
records with the default entry of “admin” also had entries in the Organization Code field. The
IRM states that the Organization Code field can be used for whatever the IT organization staff
deems necessary to manage assets, with the exception of assets in an “in stock” status.

Required asset information was not timely updated in the KISAM-AM
Our review also identified 21 of 242 assets for which information about the asset was not timely
updated in the KISAM-AM. For example, we identified five assets assigned to a user who
retired in 2011; however, the August 2012 KISAM-AM data still showed the assets assigned to
the former employee. According to IRM 2.14.1, all updates to asset data must be completed
within 10 days. Additionally, the UNS organization information technology specialists will use
the electronic move, add, and change form to document inventory changes in the KISAM-AM
within 10 days from the change request. To further enhance the accuracy of the data within the
KISAM-AM and ensure that the SACM organization meets its goal of implementing a perpetual
inventory system, any changes to information technology assets must be timely updated in the
KISAM-AM.

Assets selected for verification from the floor were not recorded in the
KISAM-AM
We also judgmentally selected 96 assets from the floor during our verification testing and traced
the items to determine if they were recorded and controlled on the KISAM-AM. Thirteen assets
totaling approximately $153,869 were not controlled in the KISAM-AM.10 These items included

10
  The dollar value is underestimated because we did not capture sufficient information for four of the 13 assets from
one of the locations visited and could not research the KISAM-AM to obtain an estimated cost for those assets.
                                                                                                           Page 10
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



a degausser (used to wipe sensitive data from storage media), a computer, and a printer. These
items present a greater risk of being lost or stolen because they are not controlled on the
inventory system. IRM 2.14.1 provides instructions that if assets are found on the floor during
the annual inventory, the KISAM-AM must be updated within 10 days.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Update the Certification Plan to include the requirement to verify the
accuracy of the data reported in the Serial Number field.
       Management’s Response: IRS management agreed with the recommendation and
       will update the Fiscal Year 2014 Certification Plan to include the requirement that the
       Serial Number field be verified and validated for all assets requiring certification.
Recommendation 3: Ensure that the KISAM-AM information is timely updated and
maintained.
       Management’s Response: IRS management partially agreed with the
       recommendation and will deliver KISAM Asset Manager Tool enhancements for
       performing asset verification and systemic asset updates for service asset transactions and
       events documented within Service Manager if and when funding is available.
Recommendation 4: Create additional anomaly reports for the minimum required
KISAM-AM data fields to facilitate ensuring that only valid entries are provided.
       Management’s Response: IRS management agreed with the recommendation and
       will engage asset owners and stakeholders to solicit feedback and requirements for new
       asset data anomaly reports to facilitate anomaly resolution and verification activities.
       They also stated that any necessary new reports will be created.

Ineffective Controls Create an Environment in Which Information
Technology Assets Are Vulnerable to Loss
Our review identified several conditions demonstrating the IT organization’s inability to
maintain effective controls over its information technology assets. For, example, we visited the
Brookhaven Campus (which included a Depot location) and the New Carrollton Federal Building
and physically located and verified information technology assets controlled in the KISAM-AM
(referred to as book-to-floor testing). We judgmentally selected a sample of 146 information
technology assets from a population of 47,857 assets recorded in the KISAM-AM. We could not
locate and verify or find proper supporting documentation for 34 assets valued at $948,310.



                                                                                          Page 11
                           Weaknesses in Asset Management Controls
                     Leave Information Technology Assets Vulnerable to Loss



As previously mentioned, we also judgmentally selected a sample of 96 information technology
assets located in the offices to verify if these items were controlled in the KISAM-AM (referred
to as floor-to-book testing). Our results showed that 12 information technology assets valued at
an estimated $28,869 were not controlled in the KISAM-AM.

Offices improperly completed the annual inventory reconciliation process
IRS offices did not always properly conduct the reconciliation of information technology assets
because they did not have sufficient resources to properly follow up and resolve those asset
records identified by the SACM organization as needing updating or correcting. As of
July 2012, the start of the reconciliation period, a total of 17,162 Class A and B assets in the
KISAM-AM had not been physically or electronically verified. The two offices selected for our
review committed to address and resolve outstanding issues identified during the annual
inventory by the end of the fiscal year (i.e., September 30, 2012). When we conducted our
on-site testing in November and December 2012, well after the close of the reconciliation period,
we could not locate 30 information technology assets, 17 (13 Class A and 4 Class C) of which
appeared on the offices’ reconciliation plan lists dated July 2012. Sixteen of the 17 assets
appeared in the reconciliation plan lists as either “aged in stock” (8), or “unverified” (8),
suggesting that at that time they existed within the IRS environment. One of the 17 assets
appeared in the reconciliation plan as “aged awaiting receipt.” The 17 assets had an acquisition
value totaling $800,554 and included a laptop and desktop computer, a server, and a network
printer.
IRM 2.14.1 describes reconciliation as the process of matching information gathered at the time
of the inventory (e.g., via self-certification, Tivoli scan, barcode scan) with what is recorded in
the KISAM-AM. The IRM further states that offices have until the end of the fiscal year to
resolve any outstanding errors found during the analysis. The Certification Plan describes
anomaly reporting as identifying inconsistencies within the KISAM-AM data (e.g., assets that do
not have a verification date) or lifecycle control issues (e.g., assets in a status longer than they
should be). Every effort should be made to update the KISAM-AM expeditiously to correct data
errors or document asset transactions. The Certification Plan also states that it is imperative that
all “unverified” asset records are updated if the asset is located or surveyed off the database if the
asset is determined to be unaccounted for or missing. The SACM organization, in conjunction
with asset owners and stakeholders, will work to resolve critical asset data anomalies and
complete the requirements of the Certification Plan during the reconciliation period.
The Certification Plan describes “aged in stock” assets as those that are out of warranty and too
costly to repair. Offices should use information about “aged in stock” assets to reduce the
number of assets in that status. Eight of the assets we could not locate during our review
appeared on the “aged in stock” list and still showed in an “in stock” status per an updated
KISAM-AM extract dated December 2012. Similarly, eight of the assets we could not locate
during our review appeared on the unverified assets list, yet updated KISAM-AM data showed
these assets as still in the “in stock” or “in use” statuses. For the one asset that appeared on the
                                                                                             Page 12
                              Weaknesses in Asset Management Controls
                        Leave Information Technology Assets Vulnerable to Loss



“aged awaiting receipt” report, the updated KISAM-AM data showed that the asset had moved to
an “in stock” status; however, we could not locate the asset during our visit.
These continued data discrepancies indicate that the IRS offices did not effectively complete the
reconciliation process and correct the data errors prior to the end of September 2012. Further,
because we could not locate and UNS organization staff could not provide us with
documentation to support whether the 17 assets in question were either relocated to another
organization/office or disposed, we have no assurance that those assets with storage media
(e.g., server, laptop computer, desktop computer) did not contain any sensitive information.
SACM organization management needs to take additional steps to ensure that asset owners
resolve all outstanding issues during the reconciliation period. Otherwise, information
technology assets will continue to be at risk of loss and management will be unable to rely on the
data within the KISAM-AM to make business decisions.

Insufficient steps were taken to recover missing assets
Offices are not taking sufficient steps to recover assets placed in a temporary “missing” status
because they do not have the resources available to track down the assets and because the reports
used by the offices to track down missing assets did not provide disposal information. Sixteen of
the 146 assets judgmentally selected from our sample of the KISAM-AM records were
categorized in the KISAM-AM in a “missing” status, 13 of which appeared on the offices’
reconciliation lists as missing and requiring resolution. During our on-site visits, which occurred
after the end of the reconciliation period, we physically located and verified four of the assets
and were provided documentation supporting the disposition of another eight assets.11 The
KISAM-AM status for these 12 assets still showed as “missing” several months after the end of
the reconciliation period, whereas the assets’ statuses should have been updated during the
reconciliation period to a status other than “missing.”
According to IRM 2.14.1, assets placed in a temporary “missing” status will appear on an
anomaly report if those asset records have not been updated after 60 days. Offices are required
to reconcile their missing assets by the end of the fiscal year in which the inventory began. The
IRM prescribes detailed steps offices should take to help with locating missing assets. These
steps include, but are not limited to, checking when the asset was last scanned by Tivoli,
physically searching for the asset based on location information recorded in the KISAM-AM,
calling the contact person listed in the KISAM-AM, and “pinging” the asset if it is a desktop or
laptop computer. After all efforts have been made to locate the missing assets, offices may
proceed with paperwork to “survey” or remove the asset record from the active inventory in the
KISAM-AM.



11
  For the remaining four assets, the IRS did not provide sufficient documentation to explain why the assets
continued to remain in a “missing” status or why they had not been removed from the KISAM-AM.
                                                                                                              Page 13
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



Our review of the KISAM-AM data for the eight disposed assets determined that each asset
record provided an IRS report number identifying the disposal documentation. The IRS report
number was not included in the missing asset lists provided to the offices for resolution. Had
this information been included, these assets could have been resolved by obtaining the
documentation to confirm the disposition of the assets and updating the KISAM-AM to reflect
the disposition date. We successfully physically located and verified four assets only after our
inquiries led SACM organization personnel to contact the users listed in the KISAM-AM, steps
that should have been taken prior to fiscal year end.
We also observed three instances where offices surveyed (or removed from the KISAM-AM
active inventory) a combined total of 423 assets during March and June 2012. This occurred
prior to receiving a Reconciliation Plan Letter, which is typically distributed on July 13 of each
fiscal year. For two of the instances, SACM organization personnel specifically stated that the
assets could not be located and were thus surveyed from the KISAM-AM active inventory. The
third instance was a follow-up on asset records that migrated from the ITAMS to the KISAM
system and could not be found. These assets, with an acquisition cost of more than $1.1 million,
included desktop and laptop computers and servers. According to the disposal documentation,
the responsible asset owners removed the assets from the KISAM-AM active inventory, stating
the assets were “lost” on March 28, 2012, March 29, 2012, and June 25, 2012, respectively.
While we understand it may be necessary to survey asset records from the KISAM-AM from
time to time, this practice should not become routine. If IRS employees survey missing assets
without taking appropriate actions to locate the assets, then the employees will be burdened by
additional steps to reinstate these asset records when they do eventually locate the asset.

High-valued information technology assets used in financial statement reporting
are not subject to annual inventory
Our analysis of KISAM-AM data identified 60 Class C information technology assets worth
almost $5.9 million that met the financial statement reporting requirements because 38 of the
assets are information technology assets and 22 of the assets are other equipment that met the
cost and useful life thresholds for financial statement reporting purposes. However, 45 of these
information technology assets were not verified during Fiscal Year 2012. This occurred because
the IRS did not incorporate guidance into the Certification Plan to consider the acquisition value
of assets during the annual inventory. These assets are of particular concern because they meet
the dollar criteria for financial statement reporting purposes.
According to IRM 1.35.6, Property and Equipment Accounting, the IRS will capitalize
information technology equipment, regardless of price or value, unless it is specifically exempted
as expendable equipment. The IRM further provides that equipment designated as other
equipment will be capitalized when the requisition funding line is greater than or equal to
$50,000 and has a useful life greater than two years. Because these 60 high-value information
technology assets affect the IRS’s financial statements, every effort should have been made to
verify them during the annual inventory and ensure the accuracy of the financial statements.
                                                                                          Page 14
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



Recommendations
The Chief Technology Officer should:
Recommendation 5: Ensure that the KISAM-AM records are updated to correct the
deficiencies identified in our review and provided to management.
       Management’s Response: IRS management agreed with the recommendation and
       will perform data review and analysis to correct deficiencies we identified and update
       KISAM-AM accordingly with current and complete information.
Recommendation 6: Ensure that the reconciliation process is effectively completed and have
offices provide supporting documentation to the SACM organization for quality review.
       Management’s Response: IRS management agreed with the recommendation and
       will implement and communicate process controls for follow-up actions with the
       responsible and accountable asset owners. They will also use an Enterprise Governance
       Board to monitor compliance.
Recommendation 7: Include additional data in the missing asset anomaly report
(e.g., disposal information) to allow offices to resolve these assets.
       Management’s Response: IRS management agreed with the recommendation and
       will develop a missing asset aging anomaly report including appropriate data fields to
       facilitate researching and resolving assets in a missing status.
Recommendation 8: Include dollar threshold criteria in the Certification Plan for certifying
information technology assets with a high-dollar value that affect financial statement reporting.
       Management’s Response: IRS management agreed with the recommendation and
       will update the FY 2014 and all future Certification Plans to require that assets with an
       acquisition value of $50,000 or greater be verified and certified.




                                                                                           Page 15
                              Weaknesses in Asset Management Controls
                        Leave Information Technology Assets Vulnerable to Loss



                                                                                                   Appendix I

         Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether system user permissions were appropriate to
ensure the safeguarding of the information technology asset inventory and to review the
effectiveness of the system in maintaining an accurate and complete information technology
asset inventory. To accomplish our objectives, we:
I.       Evaluated the effectiveness of the general information technology access controls and
         determined whether the KISAM system is properly safeguarded from unauthorized
         access and changes.
         A. Ensured the passwords for the application, database, and operating system complied
            with policies outlined in the IRM.
         B. Reviewed information generated from the audit log to ensure that only appropriate
            individuals accessed the database.
II.      Assessed the effectiveness of the inventory management controls to ensure the accuracy
         and reliability of the KISAM system to safeguard assets from fraud, waste, and abuse.
         A. Analyzed the KISAM-AM data as of August 13, 2012, and identified
            306,172 information technology assets with an acquisition cost of approximately
            $719 million. The IT Headquarters office in New Carrollton, Maryland, and the
            Depot in Brookhaven, New York, were judgmentally1 selected based on factors such
            as having a high Classes A and C asset count and a high total Classes A and C asset
            value. We used judgmental sampling because we determined that statistical sampling
            techniques would have been cost prohibitive and we did not plan to project our results
            to the entire population.
         B. Conducted a physical verification of information technology assets, excluding
            Class B assets,2 listed in the KISAM-AM and assigned to the two offices in our
            review.
             1. Analyzed information technology assets and identified assets assigned to the
                following statuses: “in use,” “awaiting receipt,” “in stock,” and “retired.”



1
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
 Due to a recent review, we did not include Class B assets in our scope. Treasury Inspector General for Tax
Administration, Ref. No. 2013-10-010, Inadequate Aircard and BlackBerry® Smartphone Assignment and
Monitoring Processes Result in Millions of Dollars in Unnecessary Access Fees (Jan. 2013).
                                                                                                            Page 16
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



           2. Judgmentally selected 146 information technology assets (from a population of
              47,857) assigned to the two offices. We used judgmental sampling because we
              determined that statistical sampling techniques would have been cost prohibitive
              and we did not plan to project our results to the entire population.
           3. Physically verified 116 of the 146 information technology assets at the two
              offices.
       C. Judgmentally selected from the “floor” a total of 96 information technology assets
          from the two offices and determined whether the information technology assets were
          properly controlled in the KISAM-AM. We used judgmental sampling because we
          could not determine the population of all information technology assets in these
          offices.
       D. Reviewed the Fiscal Year 2012 inventory verification and reconciliation process for
          each office.
       E. Analyzed the KISAM-AM data to identify data inaccuracies in those fields where the
          IRM and Certification Plan require accurate information.
III.   Evaluated the results from migrating inventory data from the ITAMS to the KISAM
       system to ensure that 100 percent of the inventory records were accounted for.
       A. Obtained an ITAMS data extract and compared it to the KISAM system data to
          ensure that all the information related to the assets was migrated.
       B. Requested a detailed walk-through of the data migration/validation contractor/
          developer-prepared deliverables and, where warranted, requested additional
          supporting documentation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: UNS organization’s policies, procedures,
and practices relating to information technology asset management and inventory; policies and
procedures relating to access security controls; and asset migration strategy, procedures, and
practices. We evaluated these controls by interviewing UNS organization management and IT
organization staff, asset users, and access security managers; reviewing relevant documentation;
and analyzing the KISAM-AM data.




                                                                                         Page 17
                         Weaknesses in Asset Management Controls
                   Leave Information Technology Assets Vulnerable to Loss



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Diana Tengesdal, Audit Manager
Mark Carder, Lead Auditor
Richard Borst, Senior Auditor
Lara Phillippe, Auditor
Kevin Liu, Information Technology Specialist




                                                                                     Page 18
                        Weaknesses in Asset Management Controls
                  Leave Information Technology Assets Vulnerable to Loss



                                                                            Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 19
                             Weaknesses in Asset Management Controls
                       Leave Information Technology Assets Vulnerable to Loss



                                                                                            Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 60,548 information technology asset records with
    incorrect or invalid entries in fields that are required to be accurate (see page 8).

Methodology Used to Measure the Reported Benefit:
       We judgmentally selected 146 information technology assets from the KISAM-AM to
        physically verify and 96 information technology assets from the “floor” to determine if
        they were properly controlled in the KISAM-AM. Sixty-one of these items had
        inaccurate data in fields that should be reviewed for accuracy.
       We analyzed the KISAM-AM and our judgmental sample identified 1,167 (1,123 + 22 +
        22) asset records with inaccurate or invalid entries in the Serial Number field. Our
        analysis also identified 59,320 (20,546 + 38,774) asset records with either a blank entry
        in the Cost Center field or an invalid entry in the System Name field.

Type and Value of Outcome Measure:
   Protection of Resources – Potential; 46 information technology assets costing $977,1791
    could not be located or positively identified or were not controlled in the KISAM-AM
    (see page 11).

Methodology Used to Measure the Reported Benefit:
       We judgmentally selected 146 information technology asset records from the
        KISAM-AM to physically verify. We could not locate or find support for 34 assets.
        These items had an acquisition cost of $948,310.



1
 The value of information technology assets reported in this section of the report was derived by using the data
which appeared in the Purchase Price field within the KISAM-AM. According to the IRS, the KISAM-AM does not
calculate the current market value of its assets. As a result, these reported dollar amounts could be inflated.
                                                                                                       Page 20
                          Weaknesses in Asset Management Controls
                    Leave Information Technology Assets Vulnerable to Loss



       We judgmentally selected 96 information technology assets to determine if the items
        were properly controlled in the KISAM-AM. We identified 12 assets that were not
        controlled in the KISAM-AM. These assets had a total estimated acquisition cost of
        $28,869.

Type and Value of Outcome Measure:
   Protection of Resources – Potential; 60 Class C information technology asset records with an
    acquisition cost totaling $5,880,619 that were not verified (see page 11).

Methodology Used to Measure the Reported Benefit:
    We analyzed the KISAM-AM and identified 60 Class C assets that met the financial
    statement reporting requirements but were not verified because the Certification Plan does
    not include guidance that considers the acquisition value of assets. Information technology
    assets are capitalized regardless of price or value, and equipment designated as other
    equipment will be capitalized when the requisition funding line is greater than or equal to
    $50,000 and has a useful life greater than two years. The 60 Class C assets met the
    capitalization requirements.




                                                                                         Page 21
                             Weaknesses in Asset Management Controls
                       Leave Information Technology Assets Vulnerable to Loss



                                                                                      Appendix V

                                  Glossary of Terms

Term                              Definition

Anomaly Report                    Produced annually and provided by the Hardware Asset Management
                                  office to identify inconsistencies or potential inaccuracies in the
                                  KISAM-AM database.
Asset Management Inventory        Annual document sent to individuals responsible for managing and
Certification Plan                verifying information technology assets. This document provides
                                  timelines and detailed guidance for completing the inventory and
                                  reconciliation process.
Asset Manager                     KISAM module that tracks information technology and
                                  non–information technology equipment used throughout the IRS.
Awaiting Receipt                  The KISAM-AM asset assignment status of pending acceptance (to
                                  be received) and usually in transit status.
Campus                            The data processing arm of the IRS. The campuses process paper
                                  and electronic submissions, correct errors, and forward data to the
                                  Computing Centers for analysis and posting to taxpayer accounts.
Certification Letter              A letter sent to each certifying organization populated with
                                  information corresponding to assets controlled by the certifying area.
                                  Each organization certifies on or about the end of July that an
                                  inventory of all assets requiring certification has been completed.
Certifying Organization           Organizations responsible for completing a Certification Letter and
                                  Reconciliation Plan Letter.
Customer Service Support Center   Consists of Service Desk and Deskside groups, which provide
                                  prompt and professional resolution of IRS end-user incidents and
                                  problems.
Database Administrator            An individual that performs all activities related to maintaining a
                                  correctly performing and secure database environment.
                                  Responsibilities include design, implementation, and maintenance of
                                  the database system.




                                                                                               Page 22
                           Weaknesses in Asset Management Controls
                     Leave Information Technology Assets Vulnerable to Loss




Term                           Definition

Depot                          There are four Functional Equipment Depots: Brookhaven [formerly
                               Volunteer Income Tax Assistance Program], Austin, Ogden, and
                               Memphis. Equipment Depots perform inventory tasks and track
                               assets that are either distributed and deployed in various locations or
                               remotely located, requiring regular communication with end users
                               and the Hardware Asset Management office.

Enterprise Service Desk        Responsible for receiving incident reports, defining the incident
                               category, determining the priority for all incident reports received,
                               and overseeing the resolution process.

In Stock                       KISAM-AM asset assignment status of unplugged and reserved for
                               future use.

                               KISAM-AM asset assignment status of currently being used and is
In Use
                               plugged in. The asset is in use, installed, and operational.

Information Technology         Provides a practical, no-nonsense framework for identifying,
Infrastructure Library         planning, delivering and supporting information technology services
                               to the business. It advocates that information technology services
                               must be aligned to the needs of the business. It provides guidance to
                               organizations on how to use information technology as a tool to
                               facilitate business change, transformation, and growth.
                               Maturity levels refer to an information technology organization’s
                               ability to perform. An organization passes through five evolutionary
                               levels as it becomes more competent:
                               Level 1: Initial – Focuses on technology and technology
                               excellence/experts.
                               Level 2: Repeatable – Focuses on products/services and operational
                               processes (e.g., Service Support).
                               Level 3: Defined – Focuses on the customer and proper service level
                               management.
                               Level 4: Managed – Focuses on business/information technology
                               alignment.
                               Level 5: Optimized – Focuses on value and the seamless integration
                               of information technology into the business and strategy making.

Missing                        KISAM-AM asset assignment status of lost, stolen, or temporarily
                               missing assets until a determination is made.

                                                                                              Page 23
                           Weaknesses in Asset Management Controls
                     Leave Information Technology Assets Vulnerable to Loss




Term                           Definition

Pinging                        Running the “ping” command from the operating system prompt to
                               determine if an asset is connected to the network.

Reconciliation Plan Letter     Letter sent to each certifying organization containing anomalous
                               asset records requiring correction and modification to the
                               KISAM-AM. The letter includes a commitment by the certifying
                               official to ensure that all outstanding items are addressed by the end
                               of September.

Retired                        KISAM-AM asset assignment status of removed from active
                               inventory and no longer used. This assignment is used in conjunction
                               with disposal codes.

Tivoli                         Application that performs system and network management, and
                               exports hardware inventory information to the KISAM-AM on a
                               weekly basis.




                                                                                             Page 24
           Weaknesses in Asset Management Controls
     Leave Information Technology Assets Vulnerable to Loss



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 25
      Weaknesses in Asset Management Controls
Leave Information Technology Assets Vulnerable to Loss




                                                    Page 26
      Weaknesses in Asset Management Controls
Leave Information Technology Assets Vulnerable to Loss




                                                    Page 27
      Weaknesses in Asset Management Controls
Leave Information Technology Assets Vulnerable to Loss




                                                    Page 28
